Supreme Court, U.S.
FILED

WAIVER

NOV 14 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-497

The Inclusive Communities Project, Inc.

Lincoln Property Company, et. al

(Petitioner)

(Respondent)
e nt)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
CPF PC Riverwalk LLC

El I am a member of the Bar of the Supreme Court of the United States.
E] I am not presently a member of
will be filed by a B

Bar of this Court_Should respon be requestresponse
,r7

Signature
Date

November 14, 2019

(Type or print) Name Arthur E. Anthony
Ej Mr.
El Ms.

D Mrs.

D Miss

Firm Locke Lord LLP
Address 2200 Ross Avenue, Ste. 2800
City & State Dallas, Texas
Phone 214-740-8000

Zip

75201

Email aanthony@lockelord.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Mike Daniel
Daniel & Beshara, PC
Attorneys at Law
3301 Elm Street
Dallas, Texas 75226
Office (214) 939-9230
Fax (214) 741-3596
daniel michael@att.net

Locke
Lord'

2200 Ross Avenue, Suite 2800
Dallas, TX 75201
Telephone: 214-740-8000
Fax: 214-740-8800
www.lockelord.com
Arthur E. Anthony
Direct Telephone: 214-740-8407
Direct Fax: 214-756-8407
aanthony@lockelord.com

Attorneys & Counselors

November 14, 2019

Via Overnight Mail
Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Waiver of Response to Petition for a Writ of. Certiorari;
Case No. 19-497; The Inclusive Communities Project, Inc. v. Lincoln Property Company,
et al

Dear Clerk:
Enclosed with regard to the above-captioned matter is an amended Waiver Form
previously mailed on behalf of CPF PC Riverwalk LLC on October 31, 2019.
Respectfully submitted,
OCKE LORD LLP

Arts E. Anthony
nsel for Respondent
CPF PC Riverwalk, LLC

cc:

Mike Daniel — w/enclosure
Taylor Brinkman (Firm via email with enclosure)

RECEWED
NOV 1 8 2019
OFFICE OF THE CLERK
SUPREME COURT, U.S.
Atlanta I Austin I Boston I Chicago I Cincinnati I Dallas I Hartford I Hong Kong I Houston I London I Los Angeles
Miami I New Orleans I New York.I Princeton I Providence I San Francisco I Stamford I Washington DC I West Palm Beach

